'

Ck

C5
No.

Q-

IN THE SUPREME COURT OF THE UNITED STATES

DON EDWARD CARTER,
PETITIONER,
V.
SHAWN PHILLIPS, WARDEN * /. :
V ;
RESPONDENT.

■'ll

ON PETITION FOR WRIT OF CERTIORARI TO
THE SIXTH CIRCUIT COURT OF APPEALS

Petition for writ of certiorari

filed
JUN 2 1 2021
Submitted by,
Don Edward Catter, 273092
BCCX, Site^2, Unit 5
1045 Horsehead Rd.
Pikeville, TN. 37367

QUESTION PRESENTED

Whether the Sixth Circuit Court of Appeals decision was an important
question of federal law that has not been, but should be, settled
by this Court, or has decided an important federal question in a way
that conficts with relevant decisions of this Court, whereby
petitioner's right to due-process were violated when the state courts
declined to equitable toll the statute of limitations, due to
his mental incompetence during the applicable time period and
thereafter, for filing his post-conviction and federal habeas corpus
petitons?

i.

I

•»

TABLE OF CONTENTS
Question presented

i

Table of Contents

ii

Table of Authorities

iii

Opinion below

1

Jurisdiction

1

Statutory and Constitutional Provisions involved

1

Statement of Case

3

Reasons for Granting the Writ

7

Conclusion

27

Appendix: '
i

Table of Contents

ii.

TABLE OF AUTHORITY
!

Federal Cases:

1.

Bilbrey v. Douglas, 124 Fed.Appx. 971 (6th Cir. 2004)....

15

2.

Jones v. U.S., 689 F.3d 621 (6th Cir. 2012).................

4

3.

McSwain v. Davis, 287 Fed.Appx. 450 (6th Cir. 2008)

14

4.

Soloman v. U.S. 467 F.3d 928 (6th Cir. 2006)..............

14

5.

Holland v. Florida, 560 U.S. 631 (2010)..........................

4,14

State Cases:
143 S.W.3d 284 (Tenn. 2004)..............

13

1.

Arnold v. State,

2.

Buford v. State, 845 S.W.2d 204 (Tenn. 1993)..............

7

3.

Carter v. State, No. W2018-00285-CCA-R3-PC (2018)..

3

4.

Davie v. State, 2017 WL 2257704 (5/23/2017).................

7

5.

Pewitt v. State,

1999)

7

6.

Sands v. State, 903 S.W.2d 297 (Tenn.

1995).................

7

7.

Seals

8.

State v. Carter, No. 02C01-971l-cc-004326 (1998)...

3

9.

State v. Carter, S.W.3d 762 (Tenn. 2000)........................

3

10.

Williams v. State, 44 S.W.3d 464 (Tenn. 2001)............

7,8

1 S.W.3d 674 (Tenn.Crim.App.

v. State, 23 S.W.3d 272 (Tenn. 2000).................

iii .

7,8

PETITION FOR WRIT OF CERTIORARI TO
THE SUPREME COURT OF'THE UNITED STATES
The Petitioner, Don Edward Carter, respectfully prays that a
Writ of Certiorari be granted to review the judgment and opinion of
the Sixth Circuit Court of Appe/als, who rendered the final decision
in these proceedings on

April 4, 2021.
OPINION BELOW

The Sixth Circuit of Appealjs affirmed petitioner's conviction in
its case no. 20-6038. The opinion is enclosed in the appendix herein
at page 6 . The order of the Sixth Circuit Court of Appeals denying
the Motion for Reconsideration En Banc was dated May 24, 2021.
Jurisdiction
The

; decision
“■

zr . r

-

of the Sixth Circuit Court of Appeals was entered

on March 4, 2021. A .timely Motion for reconsideration En Banc was
denied on May 24, 2021 (Enclosed in the Appendix, at page 8 .).
The jurisdiction of this Court is invoked under 28 U.S.C. §1254.
STATUTORY AND CONSTITUTIONAL PROVISIONS INVOLVED
The following statutory and constitutional provisions are involved
in this case.
U.S. CONST., AMEND. VI
In all criminal prosecutions, the accused shall enjoy the right
to a speedy and public trial, by an impartial jury of the State and
district wherein the crime: shall have been committed, which district
shall have been previously ascertained by law, and to be informed of
the nature and cause of the accusation; to be confronted with the
witness against him; to have compulsory process for obtaining
witnesses in his favor, and to have Assistance of Counsel for his

1.

defense.
U.S. CONST., AMEND. XIV
Section 1. All persojns born or naturalized in the United States
and subject to the jurisdiction thereof* are citizens of the United
States wherein they reside. No state shall make or enforce any law
which shall abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive a ‘ { person of life,
liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the laws.
28 U.S.C. §2254
(a) The Supreme Court, a Justice thereof, a circuit judge, or
a district Court shall entertain!an application for writ of habeas
corpus on behalf of a person in custody pursuant :to the judgment
of a State court on the ground that he is in custody in violation
of the Constitution or law or treaties of the United States.
(b)(1) An application for a writ of habeas corpus on behalf
of a person in custody pursuant to the judgment of a Sta!te court
shall not be granted unless it appears that (

(A) the applicant has exhausted the remedies available in
the court of the State; or
(B)(i) there is an absence of available State corrective
process; or
(ii) circunstances exist that render such process ineffective
to protect the rights of the applicant.

2.

STATEMENT OF CASE
Don Edward Carter was convicted by a McNairy County jury on
February 12, 1997, of two counts of murder in the first degree
in the shooting deaths of his father and aunt. The trial court
sentenced him to life in prison with the possibility of parole.
On jdune 12, 1997, the trial court denied Petitioner's Motion
for New trial. Afterwards, he^Jiled a Direct Appeal to the Court
of Criminal Appeals. On August 10, 1998, the Trial Court's
decision?was affirmed. State v. Carter, No. 02C01-9711-CC-004326
(Tenn.Crim.App. Aug. 10, 1998). On April 17, 2000, the Tennessee
Supreme Court affirmed the appeals Court decision. State v. Carter,
S.W.3d 762 (Tenn. 2000).
On January 18, 2018, Carter filed a post-conviction petition in
the state trial court, arguing in part that the one-year statute of
limitation should be tolled due to his mental illness. Finding
insufficient evidence to support the tolling claim

the trial court

dismissed the petition. The Tennessee Court of Criminal Appeals
affi^ni6d, reasoning that Carter had not provided documentation to
support his allegation that mental incompetence had prevented him
from filing his post-conviction petition for almost eighteen years.
Carter v. State. No. W2018-00285-CCA-R3-PC, 2018 WL 6266166 (Tenn.
Crim. App. Mov. 30, 2018) . On March 28, 2019, the Tennessee Supreme
Courts denied leave to appeal.
In his Section 2254 petition, pPaced in the prison mailing
system on May 20, 2019, Carter asserted that: (1) his due—process
rights were violated when the state courts declined to equitably
toll the statute of limitations for filing his post-conviction
3.

petition:

(2) he received ineffective

counsel at trial and on

appeal; and (3) the prosecutor committed misconduct. The state filed
a response in opposition on the ground that the petition was timebarred .
After concluding

that Carter was not entitled tolling, the

district court denied Carter's Section 2254 petition as untimely.
The court declined to issue a COA.
Petitioner Carter then filed for COA in the Sixth Circuit Court
of Appeals challenging that the Court's decision

was contrary to

the precedent set forth in Holland v. Florida and Jones v. U.S.
Whereby, if a prisoner fails to file a timely Section 2254
petition, the prisoner is entitled to equitable tolling of the
limitations period upon a showing that he was diligently pursuing
his right but was prevented from timely filing the petition by an
extraordinary circumstance.

Holland v. Florida, 560 U.S. 631, 649

(2010); Jone v. U.S., 689 F.3d 621, 627 (6th Cir 2012).
Specifically, Carter argued in his COA and the District Court
that his Section 2254 was untimely; however, he was entitled to
equitable tolling because:

(1) appellate counsel failed to advise

him that he could file a post-conviction despite knowing of his mental
health history and colorable post-conviction claims; (2) his mental
incompetence prevented him from pursuing a collateral challenge to
his convictions until the time of his post-conviction petition had
lapsed; and (3) a prison legal aide incorrectly advised him a few
years after the conviction and? his direct appeal that he could not
timely file a post-conviction petition. Carter alleges that a

4.

different legal aide explained equitable tolling to him and helped
prepare his post—conviction petition. Carter does claim that he is
innocent of the charges; however, he argued the mental incompetence
exception to equitable, tolling instead of the actual innocence one because
he did not have the evidence to support his actual innocence without
a post-conviction hearing and proceedings.
Ultimately, the Sixth Circuit Court of Appeals denied his request
for COA March 4, 2021. In general, the court ruled:

(1) Carter’s

ignorance of the law, even if he was mentally incompetent, does not
entitle him to equitable tolling; and (2) mental incompetence will
equitably toll the limitation period only if. the mental incompetence
caused the defendant’s inability to comply with Section 2244 £d).
Carter , however, has failed to make a sufficiently specific
allegations to support causation. While Carter has presented evidence
of his mental disorder and treatment around the time of his offense
and convictions, he has failed to present evidence of subsequent
mental incompetence that prevented him from pursuing post—conviction
remedies. Further, Carter argues that he cannot obtain his mental'
health records from the prison system.
To which, the court concluded that Carter does not allege that
he requested to examine his records, which prison regulations do
permit in some situations. He does not attempt to present his own
detailed recollection regarding his mental health after the conclusion
of his direct appeal, and he doesn't provide any information on his
mental health or behavior from anyone ;who was around during this

5.

time (which petitioner contends that he did in both his Habeas
petition and COA) . Thus. Carter has not made a substantial show.ing
that he is entitled to equitable tolling, so his COA was denied.

6.

r
REASONS FOR GRANTING THE WRIT
Whether the 6th Circuit*s decision was an important question
of federal law that has not been, but should be, settled by
this Court, or has decided an important -federal question “-in
----- a way that conflicts -with relevant decisions of this Court,
-<> whereby petitioner ' s- right—to—due—process were violated~when
the state Courts declined to equitable toll the statute of
limitations for filing his postconviction and federal habeas?
Petitioner understands that his time for filing his Post-conviction
expired on or about April 16, 2001; however, he contends that there
are extaordinary circumstance that require tolling this statute of
limitations to allow him a reasonable opportunity to bring a
Post-conviction claim[s] in the interest of due process and justice.
STANDARD OF REVIEW
"Tennessee Courts have recognized that in certain circumstance
strict application of the statute of limitations would deny a
defendant a reasonable opportunity to bring a post-conviction claim
and thus, would violate due process. Williams v. State, 44 S.W.3d
464, 468 (Tenn. 2001). When a petitioner fails to timely file
a petition for post-conviction relief due to circumstance outside
of his control, due process requires tolling of the ststute of
limitations. Id. at 468-69. Due process concerns may toll the
statute of limitations when the petitioner is mentally incompetent
or if the petitioner's trial counsel misrepresented to the petitioner
that trial counsel was still representing the petitioner, thereby
prejudicing the petitioner from filing a pro se petition for post­
conviction relief.' Id. at 469 (citing Seals v. State, 23 S.W.3d
272, 279 (Tenn. 2000)). Additionally, 'in certian circumstances,
due process prohibits the strict application of the post-conviction
statute of limitations to bar petitioner's claim when the grounds
for relief whether legal or factual, arise after the fianl action
of the highest state appellate court to which an appeal is taken'
or in other words, when the grounds arise after the point at which
Sands
the limitations period would normally have begun to run. f II ______
v. State, 903 S.W.2d 297, 301 (Tenn. 1995)(quoting tenn. Code Ann.
§ 40-30-102 (a)); also Burford v. State, 845 S.W.2d 204, 210 (Tenn.
1992); all of the above is stated in Davie v. State, 2017 ;WL 2257704
(C.C.A. of Tennessee at Nashville, may 23, 2017).
"A petitioner is entitled to due process tolling upon a showing
(1) that he/she has been pursuing his of her rights diligently
and (2) that some extraordinary circumstance stood in his/her way
and prevented timely filing." Whitehead v. State, 402 S.W.3d 615,
631 (Tenn. 2013)(citing Holland v. Florida, 560 U.S. 631, 649,
(2010). A petitioner can establish the second prong of this test
"when the petitioner's attorney of record abandons the interests,
such as by actively lying about his/her case that are not true." Id.
Additionally, establishing that he has prusued his right diligently
"does not require a petitioner to undertake repeated exercises in
futility or to exhaust £5 \ r ery imaginable option, but rather to make
reasonable efforts." Baldayaque v. U.S. 338 F. 3d 145, 153 (2nd Cir.
2003).
- 7.

Argument

In this case due process should toll the Post-conviction statute
of limitations because: (a) Petitioner's Direct.Appeal counsel did
not advise him of the post-conviction avenue upon completion of
his representation of petitioner in those proceedings: (b)
Petitioner is, and was, mentally incompetent; and, (c) a prison
approved legal-aide provided Petitioner with wrong advise pretaining
to filing an untimely post-conviction that led to the lengthy delay.
(a)

Petitioner's Direct Appeal counsel did not advise him of the
Post-conviction avenue upon completion of his representation
of Petitioner in those proceedings, which caused Petitioner
not to file a timely post-conviction.
In Williams v. State, Tennessee Courts recognized that when

a Petitioner fails to timely file a petition for post-conviction
relief due to circumstances outside of his control, due process
requires tolling of the statute of limitations. Williams v. State,
44 S.W.3d 464, 468-69 (Tenn. 2001). Due process concerns may toll
the statute of limitations when the Petitioner is mentally
incompetent or if the Petitioner's trial counsel misrepresented to
the Petitioner that trial counsel was still representing the
Petitioner, thereby prejudicing' the Petitioner from filing a Pro \
se Petition for post-conviction relief. Williams at 469

(citing

Seals v. State, 23 S.W.2d 272, 279 (Tenn. 2000).
Adopting this legal principle and applying it to the facts
in this case it would seem that due process should toll the
statute of limitations if a Direct Appeal attorney fails to tell
a mentally incompetent

client about the post-conviction avenue

for relief, an if necessary assist him/her to file an initial
bare-boned petition so counsel will be appointed, upon completion

8.

of representation in Direct Appeal proceedings.
(1) Direct Appeal counsel knew Petitioner was mentally
incompetent and unable to learn of the post-conviction
avenue on his own.
The evidence in this case shows the Direct Appeal counsel
knew that Petitioner had a history of psychiatric hospitalization,
that Petitioner had "been diagnosed as having post traumatic
stress syndrome, bi-polar disorder, severe depression and possibly
other illnesses", and that Petitioner had "been treated with
prozac, valium, and other medications." (See R.53, Appendix at 10).
The evidence also shows the Direct Appeal Counsel knew that
Petitioner's condition was chronic and "if involuntary treatment
[was] not continued [his] condition resulting from mental illness
is likely to deteriorate rapidly..." (See R.55, Appendix at 12).
The Direct Appeal Counsel knew that trial counsel described
Petitioner's state of mind as often being "confused" and "dazed",
as well as trial cousnel felt that Petitioner didn't even really
know what happened [pertaining to the crimes he was accused offl.
(See R.53, Appendix at 8).
Further, the Direct Appeal Counsel knew that Petitioner;
barely understood the claims presented on Direct Appeal,
he had an extremely poor memory, a short attention
span, and significant difficulty organizing his thoughts. (See 53
Appendix at 8 ).
Hence, the evidence shows the Direct Appeal Counsel knew
Petitioner's severe mental illnesses would leave him manifestly

9.

I •

unable to take the initiative to learn about what a post-conviction
is on his own, and without this information petitioner faced a
grave risk of forfeiting his right to seek post-conviction relief,
and afterwards a federal habeas corpus.
(2) The Direct Appeal counsel would have known, even from a
cursory review of the case, that petitioner had a number
of colorable post-conviction claims.
The Direct Appeal counsel had to know, about the colorable
post-conviction claim, that trial counsel provided ineffective
assistance of cousnel, in that:
* Trial counsel failed to present an adequate "opening
Statement," which effectively left the jury to guess at
what petitioner's defenses and theory of Aase were and
how the presented testimony and evidence supported thejm.
* Trial cousnel failed to present an available involuntary
confession defense at trial, or any real defense at all,
which prejudiced the outcome thereof.
* Trial counsel failed to subpoena and present Steve Farese
as a witness for the defense at trial.
* Trial counsel failed to subpoena and present Robert Stacey
as a witness for the defense at trial.
* Trial counsel failed to subpeona and present Rhonda Carter
as a witness for the defense at trial.
* Trial counsel failed to use inconsistent statements made
by T.B.I. agent, Terrill Mclean, to discredit his
testimony.
’

’

i

!

* Trial couns.el failed to investigate .and present a mental
health expert to testify to the detrimental effect of !
petitioner's meintal capacity caused by the jail not'
providing petitioner with his mental medication and how
it would have impacted his decision making ability.
* Trial counsel failed to investigate, and discuss with
petitioner the Pros and Cons of using, "diminished
capacity" to establish that the mens rea of this crime

10,.

did not exist due to petitioner's mental state, which could
have resulted in a verdict of guilt,as to a lessor included
offense.
* Trial counsel failed to present an expert witness or adequate
evidence during the penalty phase that petitioner was
suffering from a mental condition that significantly reduced
his sentence. See T.C.A. §40-35-113 (8).
* Trial/Appellate counsels failed to provide petitioner with
a complete copy of the trial record; specifically,
petitioner has not received a copy of the closing argument
or the erased portions of the preliminary hearing, which
hindered him in filing this post-conviction and it will
prejudice him from using it in future litigation.
* Appellate counsel made several concessions that was
detrimental to petitioner's case and could negatively impact
future litigation, all without petitioner agreeing to such
concessions.
* The cumlative effect of all the above.
The Direct Appeal counsel also had to know, about the colorable
claim, that petitioner's conviction was obtained as a result of
of prosecutorial misconduct, 'whereby
* T.B.I. Agent, Terrill NcClain, knowingly made false
statements under oath during the preliminary and supression
hearings when he testified that tapes of Petitioner's
interview did not exist, in an attempt to withhold favorable
evdience from the defense, when he knew that they did exist
and that he had given them to the District Attorney.
* The State destroyed, erase'd, the part of the preliminary
hearing tape that contained the Sheriff's testimony that
had numerous inconsistencies in it, which would have
brought his creidibility into question.
* The State Agent, the T.B.I., illegally acquired Petitioner's
Confidential mental health records, without a Court Order,
to use incriminating statements as "probable cause" for
everything thereafter.
* The State arrested Petitioner's younger brother, Randy
Carter, for the sole purpose to pressure and coerce
Petitioner into making a wrongful confession.

11.

* The State arrested Petitioner without a warrant and held him
for more than 72 hours without bringing him before a
magistrate, violating Tenn.R.Crim.P. 5 (a), so they could
coerce him into a wrongful confession.
* The state agent, the jail, blocked petitioner from calling
his friend Robert Stacey, which they knew would prevent
petitioner from being able to obtain attorney - Steve Farese.
* The state agent, the jail, intentionally deprived Petitioner
of his- mental health medication; for days - prior to. 'the ■
:
wrongful' confession knowing this would make it easier for
them to manipulate him into saying what they wanted him to
say.
* The state's agent, the jail, kept petitioner locked-up: in a
solitary confinement cell with no stimuli and the lights
on 24-hours a day to deteriorate Petitioner's mental
capacity so they could easily coerce him into a wrongful
confession.
* The cumulative effect of all the above.
Armed with this information and the knowledge that Petitioner
was mentally incompetent should have led to him advising
Petitioner of the Post-conviction avenue for relief upon
completion of counsel's representation of Petitioner in the Direct
Appeal proceedings.
(3) The Direct Appeal counsel should have known that even
if Petitioner discovered the post-conviction avenue for
relief within the prescribed time he would still be
unable to prepare a bare-boned petition that wouldn't
be sumarily dismissed, which should have inspired counsel
to provide minimal initial assistance to prepare a
bareboned petition that the courts would accept and
appoint counsel to further assist petitioner.
It is idle to suppose that Petitioner, with mental illness,
could manage state post-conviction litigation by himself. Especially,
since petitions for post-conviction relief often raise issues

12.

which require investigation, analysis and presentation of facts
outside the appellate record.
Even for a bare-boned petition to be accepted by the court,
were counsel can be appointed, petitioner must present a petition
that contains clear and specific statement of the grounds upon
which relief is sought, including full discloser of the factual
basis of those grounds. See T.C.A. §40-30-106 (d), Tenn. Sup. Ct.
R. 28

5(F)(3), and Arnold v. State, 143 S.W.3d 784 (Tenn. 2004).

A bare allegation that a constitutional right has been violated
and mere conclusion of law or no colorable claim is stated shall
not be sufficient to warrant any further proceedings. See Pewitt
v. Sthte,1 S.W.3d 674 (Tenn. Crim. App. 1999).
Hence, Direct Appeal counsel knew that these tasks can be
demanding for a professional, and impossible for petitioner who
was mentally incompetent, which should have caused counsel to
notify petitioner of the post-conviction avenue of relief, and
to provide minimal assistance in initially filing a bare-boned
petition that the court would accept and then appoint counsel
to further assist petitioner. Instead, counsel just abandoned
petitioner.
All of which, demonstrates that Direct Appeal counsel's
representation, considering the circumstances herein, was
ineffective at best and actually resulted in petitioner, a
mentally incompetent client, being abandoned in a critical stage
of these proceddings. Therefore, Petitioner's statutory right

13.

to post-conviction, and constitutional right to federal habeas
corpus review thereafter, was waived at no fault of Petitioner; 7
by circumstances outside of his control, were due process and
justice should require, in this extraordinary situation,
equitable tolling of the statute of limitations of this post­
conviction.
(b)

Petitioner was mentally incompetent during the applicable
statute of limitations time period for. filing his postconviction, and thereafter, which caused Petitioner not to
file5; a timely post-conviction and the lengthy delay before
"he filed and untimely post-conviction.
Similar to the United States Supreme Court and the 6th
Circuit, the Tennessee courts' lhave recognized that the
one-year limitations period is not a jurisdictional bar
and is therefore subject to equitable tolling where
petitioner "shows (1) that he has been pursuing his rights
diligently, and (2) that some extraordinary circumstance
stood in his way and prevented timely filing." Holland v
Florida, 560 U.S. 631, 649 (2010). Although we have held
that equitable tolling should be applied sparingly,"
Solomon v. U.S.. 467 F.3d 928, 933 (6th Cir. 2006), we
have also recognized the needs for flexibility... enables
courts to meet new situations that demand equitable
intervention, and to accord all the relief necessary to
correct particular injustice." Id. (quoting Holland, 560
U.S. at 650). Thus, althought our application of equitable
tolling is restrained, we avoid rigid rules and consider
equitable-tolling claims on a case-by-case basis. Id.
(citing Holland, 560 U.S. at 650).
The United States and Tennessee Supreme courts have
, :
recognized that a petitioner's mental incompetence can
constitute an extraordinary circumstance under Holland
662 F.2d 736, 742 (6th Cir. 2011): see also McSwain v
Davis, 287 Fed.Appx. 450, 456 (6th Cir. 2008")”! In so holding,
we fashioned the following test: "to obtain equitable
tolling of... statute of limitations on the basis of
mental incompetence caused his failure to comply with...
[the] statute of limitations." Holland, 662 F.3d at 742.
In other words, " a causkl link between the mental
condition and untimely filing is required." Id. Holland,

14.

662 F.3d at ,745.
In the context of equitable tolling, causation is not
at fact - it is a leagl determination basedj on facts. See
Bilbrey v Douglas, 124 Fed. Apprx. 971, 973 (6th Cir. 2004)
The evidence shows:
(1) "That Petitioner was abused as a child, so were other
members of his family. He was reared in a broken home (parents
divorced or separated) and he himself has gone through a divorce­
coming back from Desert Storm to find that his wife... [had] an
affair... (Appendix at 7).
(2) On February 13, 1996

Petitioner's discharge summary,

by Radwan Haykal M.D., at Charter Lakeside Hospital Behavioral
Health System, "prognosis: Fair to good, depending on the patient's
compliance with the follow up aftercare plan and adherence to
medication." (R. 55, Appendix atll).
(3) Petitioner' counsel's signed letter dated September 29,
1996, states "Petitioner has a history of psychiatric

-

hospitalization and presently sees a psychologist or psychiatrist."
Further, "during my first contact with [petitioner] he was some
what confused and appeared to be in a daze." (R. 51, Appendix at 8 ).
(4) In another letter by petitioner's counsel dated November
25, 1996, states that "[Petitioner] has been diagnosed as having
post-traumatic stress syndrome, bi-polar disorder, severe
depression and possibly other illnesses." The letter also states
that [Petitioner] has been treated with prozac, valium and othe
[mental health] medications." (R. 53, Appendix at 10).

>

15,

(5) On December 17, 1996, Amin Azimi, Ed.D. a licensed
psychologist examined petitioner and made this signed, sworncertified, prognosis:
* The preson is mentally

ill..

* "The person has threatened or attempted homicide or
other violent behavior, or"
* "The person is unable to avoid severe impartment or
injury from specific risks, and there is a substantial,
likelihood that such harm will occur unless the person
is placed under involuntary treatment.
* [Petitioner's] thoughts are marked by confusion,
distractability, and difficulties in concentration."
* "I cerify thati if involuntary treatment is not continued
the person's condition resulting from mental illness is
likely to deteriorate rapidly to the point that the
person would be again admittable... (R. 55-56, Appendix
at 12).
(6) Also on December 17, 1996, Rokeya Farooque, M.D., a
licensed physician examined Petitioner and made this signed,
sworn-certified, prognosis:
* The preson is mentally ill.
*^Thelperson had threatened or attempted suicide or inflict
seflous bodily harm [or] harm on himself, or"
* "The person is unable to avoid severe impairment or
injury from specific risks, and there is a substantial
likelihood that such harm will occur unless the person
is placed under involuntary treatment."
* All available less drastic alternatives to placement in
a hospital or treatment resource are unsuitable to meet
the needs of_ the ..person as shown by the following
facts and 'reasoning: jneed complete stabilization with
medication "and therapy to avoid danger to himself
and others."
* I certify that if involuntary treatment is not continued

16:.'
Vf

the person's condition resulting from mental illness is
likely to deteriorate rapidly to the point that the
person would be again admittable... (R. 56-58, Appendix
at
).
Hence, the evidence shows that petitioner had a history of
mental illness, "and his condition

is chronic, which means it

will effect him for the rest of his life.
Petitioner couldn't present any supportive letters about
his mental illnesses, or his mental health records, from the
applicable limitations period, or thereafter, because:
(1) Petitioner could not present his mental health records
from the applicable time period, or thereafter, because he was
in the Tennessee Department of Correction (TDOC) during that time,
and at all time thereafter, and TDOC has a policy # 113.52 (B)(3)
that prohibits inmates from access to, or the coping of, their
mental health records.
(2) Petitioner couldn't get supportive letters of his
mental illness, during the applicable time, or thereafter, from
family members because he lost contact with his family after he
was convicted of killing his father and aunt.
(3) Petitioner couldn't provide supportive letters from
an attorney during the applicable time, or thereafter, because
he did not have an attorney in that time or thereafter.
(4) Petitioner couldn't get support letters from TDOC
staff during the applicable time period, or thereafter, because
the department discourages employees from providing letters to
A

17.

inmates that will be used in legal proceedings.
However, the evidence presented (the two (2) signed letters
by Gary F. Antrican petitioner's trial counsel,-R. 51-53, Appendix
at 8 &10; the signed discharge summary by Radwan Haykac M.D.

R.

55, Apendix 11; the signed, sworn-certified, prognosis of Rokeya
Farooque M.D., R. 56-58, Appendix 13 ; and, the signed, sworncertified, prognosis of psychologist Amin Azimi Ed.D., R.55-56,
Appendix 12 .) are sufficient to prove that petitioner had a
history of mental illnesses, in 1996 he suffered from mental
illnesses, and these mental illnesses are chronic, which means
he was suffering from mental illnesses during the applicable
statute of limitations time period and thereafter for the rest
of his life.
Further, the evidence shows causation between petitioner's
mental incompetence and the fact that petitioner was unable to,
personally learn of the post-conviction avenue for'relief during
the applicable time period, and even if he had of learned about
it he would have been unable to prepare an initial petition
and effectuate its filling on his own.
Petitioner's mental incompetence caused him to be less
capable at trial to assist in his own defense and caused him to
be victimized by the ineffective assistance of counsel
[summarized on page 9 ] and prosecutorial misconduct [summarized
on page 10]. This inevitably resulted in an erroneous
unconstitutional conviction and sentence. When this occurred,

18.

post-conviction proceedings provided the only possibility for
relief.
To seek this relief petitioner, who was mentally incompetent,
would have to learn of the post-conviction avenue for relief on
his own then prepare and file an initial petition that met the
minimal standards so it would not be summarily dismiss.
In other words, petitioner would have to conduct legal
research, comprehend that research, to learn of the posttconviction
avenue for relief. Then he would have to prepare a bare-boned
petition, which would require him to comprehend constitutional
and statutory rights, analysis his case to determine which rights
have been violated, then prepare those facts in a clear and
concise manner, before the court would accept it and appoint
counsel. Further, the petition must contain clear and specific
statement of the grounds upon which relief is sought, including
full discloser of the factual basis of the grounds. See T.C.A.
§40-30-106 (b) a bare allegation that a constitutional right
has been and mere conclusion of,law, or no colorable claim is
stated, shall not be sufficient to warrant any further court
proceedings. See Pewitt v. State, 1 S.W.3d 674 (Tenn.Crim.App.
1999).
The evidence shows that petitioner with mental illnesses
was manifestly unable to take the initiative to learn of Post
conviction avenue for relief on his own,

or prepare and file a

bareboned petition, if he had of learned about post-conviction

19.

proceedings. Specifically,
(1) Petitioner's trial counsel stated that "during his first
contact with [petitioner] he was some'fwhat confused and appeared
to be in a daze." See R. 51, Appenidx 8.
(2) Petitioner's trial counsel stated that [petitioner]
has been treated in psychiatric hospitalization, prior to the
alleged murder and thereafter, at Lakeside in Memphis and at
Genesis of Jackson... "I have observed [Petitioner's] behavior
to vary from one visit to the next ,, I have/observed him in
what appeared to be states of depression, states of confusion
and states of being normal-- it varies from day to day.
Truthfully, I am not sure that he really knows what happened..."
See R. 53, Appendix at 10.
(3) Rokeya Farooque, M.D., a licenced physician's
professional opinion, based on my experience and the information
provided me

I certify that this person is...mentally ill and

that if involutary treatment is not continued the person's
condition resulting from mental illness is likely to deteriorate
rapidly to the point the person would be again admittable. See
R. 55, Appendix at 13.
(4) Amin Azimi, Ed.D., a licenced psychologist, 'declarej
that I have personally examined petitioner and it is my
professional opinion, based on my examination and information
provided me, I certify that this person is...mentally ill...

r,1

20.

"his thoughts are marked by confusion, distractability, and
difficulties in concentration... and that if involuntary treatment
is not continued the person's condition resulting from mental
illness is likely to deteriorate rapidly... See R. 55, Appendix
at 12-'.
The evidence shows that petitioner's chronic mental illnesses
caused him to be often confused and dazed, easily distracted, a
poor memory, difficulty organizing his thoughts, and unable to
concentrate, which caused him to be unable to take the initiative
to conduct the legal research were he could discover the post­
conviction avenue within the applicable time. Further, even if
he would have discovered the post-conviction avenue in the
applicable time period his mental illness would have caused
him to be unable to prepare and effectuate a filing of a
petition on his own.
Hence, petitioenr has demonstrated from the totality-ofthe-circumstance a causal link between his mental condition
and the untimely filing of his post-conviction. Petitioner,
has also shown his mental incompetence was an extraordinary
circumstance beyond his control, because his condition caused
him to be unable to take the initiative to discover the
post-conviction avenue for releif, and if he had of discovered
it his mental state would have rendered him unable personally
to prepare a post-conviction petition and effectuate its
filing. Thus, petitioner's mental illnesses made it impossible

2P.

4M

to meet the filing deadline under the totality-of-the-circumstances.
(c) A prison approved legal-aide provided petitioner with
incorrect advice pertaining to filing an untimely post­
conviction, which led to the lengthy delay.
The Petitioner, who was mentally incompetent, must show diligence
in pursuing the claims to the extent he could understand them. And
in this case, evidence has shown that petitioner lacked the ability
to take the initiative to discover the post-conviction avenue on
his own, or even if he had discovered it petitioner would have been
unable to personally prepare a petition and effectuate the filing
of it. This demonstrates that petitioner's mental incompetence
constituted an extraordinary circumstance that caused his failure
to comply with the post-conviction's statute of limitations.
Further, in this case the incorrect advice given by a prison
approved legal-aide, Mr. Don McCary, is not insignificant. It
actually caused the lengthy delay between the experation of the
statute of limitations and petitioner filing his untimely post­
conviction. Specifically,
After the Tennessee Supreme Court had denied his request for
permission to appeal the Court of Criminal Appeals decision
denying his Direct Appeal, and his Direct Appeal counsel had
notified him that his representation of petitioner was complete,
without telling him about the post-conviction avenue for relief,
led petitioner, who was mentally incompetent, to conclude that
his case was final and that there were no other avenues for him to
challenge his wrongful conviction.

22 l

1 ,

After" a = couple of years had past, and by accident, petitioner
overheard an inmate talking about his post-conviction. Petitioner
asked the inmate to explain to him what a Post-conviction is.
The inmate explanation left,petitioner confused, and he didn't
really understand what is was, but he did understand that it was
a way to challenge a unconstitutional conviction. Hence, to findout
more, and to see if it was something that he could file to
challenge his wrongful conviction led to him going to the prison's
library and talking to a prison approved legal-aide, Don McCary.
In The‘Tennessee Department of Correction (TDOC) each prison
has inmates that are approved (which means the inmate has passed
a basic legal test and been approved by the Warden) to assist other
inmates with thier legal filings.
Petitioner asked Don to expalin what a post-conviction is.
Don explained, that it is

an avenue were a defendant can challenge

ineffective assistance of counsel and other constitutional violations
that occurred during trial or sentencing proceedings. Petitioner
told Don’ that he felt like his trial counsel had made some
mistakes in his case, so Petitioner wanted to know if Don could
help him file a post-conviction. Don asked him to wait just a
minimute while Don went over to a computer an looked-up Petitioner's
litigation history on West Law. Then Don returned and explained
that Petitioner's

statute of limitations had expired for

filing a post-conviction. Hence, he was time-barred and could not
Petitioner did not know until later that Don McCary, was selftaught in law and, had no formal education in law. Further Don
only had a GED.

23.

1

*'■

" 1

J ,

file a post-conviction.
Petitioner had no reason to beleive that Mr. McCary's legal
advice was incorrect. And he continued to beleive what Mr.
Mccary had told him, that he was time-barred and could not
file a post-conviction, until one day when he was walking around
the Unit's dayroom talking to a prison approved legal-aide
that had recently moved into petitioner's unit. This legal-aide,
Mr. Nichols, had been an Executive Director of a non-profit
organization,_who had been to college, before his conviction,
as well as he had earned an Associate Degree in Paralegal
Studies from Ashworth College after he was locked-up. During
their conversation petitioner told Mr. Nichols about his case.
Mr. Nichols inquired about the outcome of Petitioner's post­
conviction; to which, Petitioner replied that he did not
file one. Mr. Nichols asked, why? Petitioner explained, that
Mr. McCary had told him that he was time-barred and couldn't
file one. Mr. Nichols had Petitioner to come to the Library and
Mr. Nichols showed Petitioner that he could have, and still
could, file a post-conviction if he met the criteria for tolling
the statute of limitations. Unfortunetly, Mr. McCary's incorrect
advice.resulted in the lengthy delay were petitioner didn't
file a post-conviction for over fifteen years after the statute
of limiattions had expired.
Within a few weeks of learning that he met the criteria for
tolling the statute of limitations, petitioner with the assistance
of a .prison approved legal-aide filed a untimely post-conviction.

24.

i r

>

In sum, petitioner used due diligence in that he, a mentally
incompetent defendant,, seeked assistance as soon as he learned
of the post-conviction avenue for relief. Then petitioner stopped
seeking avenues to challenge his wrongful conviction after Mr.
McCary, a prison approved legal-aide, incorrectly advised
petitioner that he could not file a post-conviction because he
was time-barred. Petitioenr had no reason to believe that Mr.
McCary was incorrect. Hence, it would have been futile for
petitioner to continue to try an f ile a post-conviction after
learning from a prison approved leagl-aide that he could not
file one.
Further, within a week of learning that Mr. McCary had
provided him with incorrect advice and that petitioner met
the criteria for tolling the staute of limitations he filed
an untimely post-conviction, all of which demonstrates that
he was diligent.
Hence, petitioner has done everything within his power and
to the extent that he understood his rights to challenge his
wrongful conviction, which shows he does meet the due diligence
criteria.
All of the foregoing demonstrated by the totality of the
circumstance, (a) that petitioner's Direct Appeal counsel did
not advise him of the post-conviction avenue upon completion
of his representation of petitioner in those proceedings,

25.

(b) that petitioner was mentally incompetent during tha applicable
time and thereafter, and (c)' that a prison approved legal-adies erred
in advsing petitioner that he could not filed a post-conviction
because he was time-barred led to the lengthy delay, that'

X. X

demonstrates petitioner* had an extraordinary circumstance that
stood in the way and prevented timely filing of his post-conviction.
Thus, Petitioner meets the criteria for equitable tolling of the
staute of limitations for filing his post-conviction.

- 26.

CONCLUSION
For these reasons a Writ of Certiorari should be issued to review
the judgment and opinion of the Sixth Circuit Court of Appeals.
Respectfully submitted by,

(TVt P
■ Don Edward Carter, 273092
BCCX, Site 2, Unit 5
1045 Horsehead Rd.
Pikeville, TN. 37367

27 .

